        Special Inspector General for Afghanistan Reconstruction




SIGAR
        Testimony
        Before the Committee on Oversight and
        Government Reform
        U.S. House of Representatives




        Challenges Affecting U.S. Foreign
        Assistance to Afghanistan



        Statement of John F. Sopko,
        Special Inspector General
         for Afghanistan Reconstruction
        April 10, 2013
Chairman Issa, Ranking Member Cummings, and Members of the Committee,

I am pleased to be here to discuss the serious challenges affecting U.S. foreign assistance
to Afghanistan. It is the mission of the Special Inspector General for Afghanistan
Reconstruction (SIGAR) to provide effective oversight of what has become the most costly
reconstruction effort of a single country in U.S. history. 1

Since 2002, Congress has appropriated nearly $93 billion to rebuild Afghanistan. 2 The
Administration has signaled to the Afghan government and our coalition allies that it intends
to request substantial additional assistance for Afghanistan through the transition period
between now and the end of 2014 and during what the international community is calling
the “Transformation Decade” following the withdrawal of U.S. and coalition combat forces
through 2025. The World Bank estimates that Afghanistan will need more than $7 billion
each year for the next ten years to sustain reconstruction gains, fund Afghan security forces,
and cover the large financial gap between Afghan government revenues and operations and
maintenance costs. 3

Congress and the Administration will determine how much of that projected cost the United
States will pay. Whatever the amount, much of the new funding will be in the form of direct
assistance that is programmed through the Afghan national budget.

Before 2010, the United States provided most of its assistance to Afghanistan through
contracts, grants, and cooperative agreements that have been executed outside the Afghan
budget and beyond the reach of Afghan officials. Since 2010, the United States and other
donors have agreed in principle to provide more on-budget assistance to help Afghan
government institutions build capacity to manage funds and deliver services. At the same
time, the international donor community has made this aid conditional on the Afghan
government tackling endemic corruption and demonstrating that it has the capacity to
manage these funds in a transparent manner. 4

Therefore, a successful security and political transition in 2014 and continued international
support depend to a great degree on the ability of the Afghan government to allocate,
manage, and account for direct assistance funds; and to put the money to good use for its
intended purposes.


1 In FY 2012, Congress provided more than $16 billion for the reconstruction of Afghanistan. That is almost
twice as much as Congress made available in FY 2012 for the next four largest foreign assistance
beneficiaries—Israel, Iraq, Pakistan, and Egypt—combined.
2This number includes FY 2013 appropriations for DOD reconstruction programs but not the appropriations for
State and USAID which are still being negotiated within the continuing resolution.
3   The World Bank, Afghanistan in Transition: Looking beyond 2014, 2013
4 The International Conference on Afghanistan, London 2010; the Kabul Conference, Kabul 2010;
International Conference on Afghanistan, Bonn 2011; Tokyo Conference on Afghanistan, 2012


SIGAR 13-10T                                                                                            Page 1
This testimony will summarize the major problems SIGAR has identified with the U.S
reconstruction program—whether funding is provided on or off budget—in Afghanistan,
examine the additional challenges posed by direct assistance, and describe what SIGAR is
doing to address these issues.

But before proceeding further, it is important to remember that independent and effective
oversight is essential for safeguarding U.S. foreign assistance and ensuring that it achieves
desired outcomes. This is as true for government-to-government aid as it is for U.S.-funded
contracts and grants.


Ongoing Challenges to Foreign Assistance in Afghanistan Put U.S. Funds at Risk
Since the end of 2008, when Congress created SIGAR to oversee the growing reconstruction
effort in Afghanistan, our auditors and inspectors have completed 75 audit and inspection
reports and made 245 recommendations. Federal agencies have implemented many of our
recommendations to strengthen their ability to develop and execute programs, as well as to
improve program management and quality control. SIGAR currently has 73 open
recommendations. If all of them were accepted, the U.S. government could potentially save
about $450 million as well as achieve dozens of other improvements to the implementation
of reconstruction projects in Afghanistan. Since I became the SIGAR, we have significantly
increased our output. By the end of this quarter, the agency will have produced at least 31
products during my nine month tenure, three times what we produced in the previously nine
months.

SIGAR has repeatedly identified a number of serious ongoing challenges to this historic
reconstruction effort. These systemic problems, which apply to all U.S. assistance in
Afghanistan, include the following five primary areas of concern:

   •   Inadequate planning
   •   Poor quality assurance
   •   Poor security
   •   Questionable sustainability
   •   Pervasive corruption

Inadequate Planning
SIGAR’s audits and inspections have repeatedly found that inadequate planning and lack of
coordination have led to waste, increased costs, delays, and unsustainable projects, as well
as facilities that are not being used for their intended purposes. Some programs have failed




SIGAR 13-10T                                                                              Page 2
to achieve strategic objectives, such as supporting the counterinsurgency effort, promoting
improved governance, and fostering economic development. 5

Effective planning is especially important now, as the United States withdraws combat
forces and prepares to transition reconstruction projects to the Afghan government. Last
month, SIGAR announced an audit to determine whether U.S. government agencies have
transition plans in place. This audit will examine whether U.S. plans adequately address the
asset-transfer process and the Afghan government’s ability to maintain those assets. It will
also evaluate the extent to which a comprehensive inventory of all U.S.-funded projects and
assets has been developed.

Poor Quality Assurance
Quality assurance, particularly of infrastructure projects, continues to be a major problem.
SIGAR inspections have repeatedly highlighted structural problems, improper site grading,
soil issues, and improper usage of facilities. 6 SIGAR is currently conducting 17 inspections
of U.S.-funded infrastructure projects—Afghan security force facilities, schools, and clinics—in
Afghanistan’s northern provinces to determine whether these facilities have been built in
accordance with contract requirements and are being used for the purposes intended. Our
inspections teams are also examining waste incinerators, designed to protect U.S. and
coalition forces from the hazards of open pit burning of waste, and the Kajaki hydroelectric
dam, which is key to providing sustainable power in southern Afghanistan.

Poor Security
Poor security poses a major challenge to every aspect of the reconstruction effort, from
executing programs to providing oversight. SIGAR remains particularly concerned about two
aspects of security relating to development projects.

First, because of the dangerous environment, contractors and nonprofit organizations must
rely more and more on private security services. But as of a year ago, they have been
required by Afghan law to contract with the government-run Afghan Public Protection Force
(APPF) instead of private security companies. Last year, a SIGAR audit of the transfer of

5 SIGAR Audit 13-2, Afghanistan National Power Utility: $12.8 Million in DOD-Purchased Equipment Sits
Unused, and USAID Paid a Contractor for Work Not Done, December 18, 2013; SIGAR Audit 12-12, Fiscal Year
2011 Afghanistan Infrastructure Fund Projects Are Behind Schedule and Lack Adequate Sustainment Plans,
July 30, 2012; SIGAR Inspection 13-4, Kunduz Afghan National Police Provincial Headquarters: After
Construction Delays and Cost Increases, Concerns Remain About the Facilities Usability and Sustainability,
January 2013; SIGAR Inspection 13-5, Imam Sahib Border Police Company Headquarters in Kunduz Province:
$7.3 million Facility Sits Largely Unused, January 2013
6SIGAR Inspection 13-01, Kunduz ANA Garrison: Army Corps of Engineers Released DynCorp from All
Contractual Obligations Despite Poor Performance and Structural Failures, October 2012; SIGAR Inspection
13-03, Gamberi Afghan National Army Garrison: Site Grading and Infrastructure Maintenance Problems Put
Facilities at Risk, October 2012


SIGAR 13-10T                                                                                         Page 3
security services of USAID-funded projects to the APPF found that the cost of security
services could increase because of the APPF fee structure. 7 SIGAR has an ongoing second
audit to identify the cost of security services for selected USAID projects and determine the
impact of the APPF transition on reconstruction projects. APPF effectiveness is another issue
of potential concern.

Second, as U.S. and coalition forces withdraw, it will become steadily more difficult for both
the implementing and oversight agencies to monitor projects. With the military drawdown
and transition to the Afghan security forces, it has already become harder for implementing
agencies to effectively manage projects and for oversight agencies such as SIGAR to visit
and inspect projects. This is because U.S. forces in Afghanistan have a policy of only
providing security in areas within an hour by road or air travel of a medical facility. For
example, recently SIGAR was unable to visit $72 million in infrastructure projects in northern
Afghanistan because they are located outside the security “bubble.” This will only get worse
as more bases close or are handed over to Afghan units that lack medical-evacuation
capability. SIGAR is examining ways to continue to provide vigorous oversight in this evolving
security environment, including expanding the use of satellite imagery and hiring Afghans or
other third-country nationals to conduct site visits.

Questionable Sustainability
SIGAR was among the first to highlight another great risk to the reconstruction effort:
sustainability. The United States is building infrastructure and launching programs that the
Afghan government has neither the financial nor technical ability to operate and maintain.
The United States has provided tens of billions of dollars for infrastructure, everything from
roads and electricity networks to schools, clinics, and security force facilities. 8 However, as
we and the World Bank have pointed out, the Afghan government lacks the revenue,
institutional capacity, and human capital to operate and maintain much of this
infrastructure. In FY 2011, the most recent year for which the World Bank has complete
data, Afghanistan’s budget included about $335 million—or 10% of its core expenditures—
for operations and maintenance (O&M). But, as the United States and other donors transfer
these assets to the Afghans, future requirements are expected to rise to $4.8 billion for total
civilian and security O&M. 9




7SIGAR Audit 12-10, Increases in Security Costs Are Likely under the Afghan Public Protection Force; USAID
Needs to Monitor Costs and Ensure Unlicensed Security Providers Are Not Used, June 29, 2012
8 SIGAR Audit 13-1, Afghan National Security Forces Facilities: Concerns with Funding, Oversight, and

Sustainability for Operations and Maintenance, October 30, 2012
9   The World Bank, Afghanistan in Transition: Looking beyond 2014, 2013, p. 6


SIGAR 13-10T                                                                                            Page 4
Pervasive Corruption
Corruption threatens the entire reconstruction effort in Afghanistan. It siphons funds away
from vital programs, undermines the rule of law, and reduces popular support for the Afghan
national government. For this reason, SIGAR has conducted a number of audits that
assessed Afghanistan’s anti-corruption bodies, has evaluated efforts to monitor bulk cash
flows through the Kabul International Airport, and has deployed investigators to field offices
in six locations in Afghanistan to identify individuals engaged in bribery and extortion.
SIGAR’s audit work has highlighted serious shortcomings in Afghan capacity and lack of
political will to combat corruption.

More than two years ago, SIGAR recommended that the United States develop an integrated
anti-corruption strategy. 10 Although the U.S. Embassy in Kabul produced a draft strategy, it
was not adopted. SIGAR’s Office of Special Projects is now conducting a review to evaluate
the current U.S. anti-corruption strategy and its implementation, and the progress the United
States has made in meeting its anti-corruption goals in Afghanistan. In addition, SIGAR’s
Audit and Inspection Directorate is currently reviewing a major State Department rule of law
program. As noted above, the international donor community has stipulated that the Afghan
government must demonstrate a commitment to deterring corruption as a prerequisite to
receiving continued development assistance. It is our responsibility to hold the Afghan
government accountable to their latest promises to improve their anti-corruption
capabilities.


The Use of Direct Assistance in Afghanistan
Direct assistance, strictly defined, is aid provided through a host nation’s national budget.
This assistance can be delivered through multinational trust funds or by individual
governments through bilateral agreements. International donors contribute to multinational
trust funds that provide and oversee assistance to Afghanistan’s national budget. Bilateral
aid can consist of direct budget support for government salaries, all aspects of government
functions, and earmarked projects to be managed by government institutions. For example,
since 2005, the United States has given funding directly to the Afghan Ministry of Public
Health to administer some basic health services. SIGAR has an ongoing audit of this
program.

In January 2010, the United States and other donors at the International Conference on
Afghanistan in London supported Afghanistan’s request to increase the proportion of
development aid delivered through the Afghan government to 50 percent over two years.
However, they made this support conditional on the Afghan government’s progress in


10SIGARAudit 10-15, U.S. Reconstruction Efforts in Afghanistan Would Benefit from a Finalized
Comprehensive U.S. Anti-Corruption Strategy, August 5, 2010


SIGAR 13-10T                                                                                    Page 5
strengthening its public financial management systems, reducing corruption, improving
budget execution, and developing government capacity.11 At the Kabul Conference six
months later, the United States and other international donors restated their support for
channeling at least 50 percent of development aid through the Afghan government’s core
budget within two years provided the Afghan government achieved the necessary reforms. 12

USAID and the Department of Defense (DOD) are both providing direct assistance to
Afghanistan using multinational trust funds and bilateral agreements.

Multinational Trust Funds
The United States is currently providing the most of its direct assistance to Afghanistan
through two major multinational trust funds: the Afghanistan Reconstruction Trust Fund
(ARTF) which is managed by the World Bank and the Law and Order Trust Fund for
Afghanistan (LOTFA), which is managed by the United Nations Development Programme
(UNDP).

The ARTF is the primary funding mechanism for direct international assistance to the Afghan
operational and development budgets. The Afghan government uses these funds to pay
recurrent costs such as salaries and O&M, as well as for national development programs.
From 2002 through December 20, 2012, the World Bank reported 33 donors had pledged
nearly $6.18 billion, of which more than $6.11 billion had been paid in to the ARTF. The
United States, the single largest donor to the ARTF, has provided more than $1.74 billion—or
28 percent—of the total that has been paid into the trust fund. 13 USAID draws from the
Economic Support Fund (ESF) to contribute to the ARTF.

LOTFA supports the Afghan National Police (ANP), primarily by funding salaries. Since 2002,
donors have pledged more than $2.65 billion to the LOTFA of which nearly $2.57 billion has
been paid in. The United States has contributed nearly $970 million—or 38 percent—of the
total funding for LOTFA since the Fund’s inception. Over the next two years, DOD expects to
contribute an additional $567 million which will bring the total U.S. LOTFA contributions to
$1.25 billion in 2014. 14 DOD supports the LOTFA from the Afghan Security Forces Fund
(ASFF), which Congress established in 2005 to pay for programs to train, equip, and sustain
the Afghan army and police forces.




11Communiqué     of “Afghanistan: The London Conference,” January 28, 2010
12   Communiqué, Kabul Conference on Afghanistan, July 20, 2010
13   Based on USAID response to SIGAR data call, March 30, 2013
14   Based on a chart provided by DOD/OSD-Comptroller to SIGAR on March 29, 2013


SIGAR 13-10T                                                                            Page 6
Bilateral Assistance
USAID and DOD also provide direct assistance to the Afghan government. Since 2002,
USAID has obligated more than $452 million from the ESF to 13 Afghan ministries and
government agencies. Before providing direct assistance to government entities, USAID
assesses whether a ministry or government institution has the capacity to manage and fully
account for funds provided.

In 2009, USAID in Afghanistan completed pre-award assessments of the Afghan Ministry of
Finance, the Central Bank, and Afghanistan’s Control and Audit Office. However, in 2010,
USAID’s Office of the Inspector General concluded that these assessments were not reliable.
Consequently, in 2011, USAID issued a new directive requiring that a public financial
management risk assessment framework be completed prior to distributing direct
assistance to another government entity.

Between 2011 and 2013, USAID contracted with two accounting firms to assess the
capacity of Afghan ministries to manage and account for direct assistance. The firms have
completed assessments of 13 Afghan ministries. Because of SIGAR’s concerns about the
Afghan government’s capacity to administer and account for U.S. funding, a SIGAR audit is
examining USAID’s contracts with the accounting firms, summarizing the firm’s findings, and
evaluating how USAID plans to use the assessments in providing direct assistance. SIGAR is
also evaluating the Afghan Ministry of Public Health’s U.S.-funded program to deliver basic
health care.

DOD provides direct assistance to Afghanistan’s Ministry of Defense (MOD) and Ministry of
Interior (MOI) from the ASFF. The Combined Security Transition Command-Afghanistan
(CSTC-A), which is responsible for developing the Afghan security forces, oversees the direct
contributions to the MOD and MOI. DOD guidance stipulates that direct assistance may be
used to pay salaries; procure food, goods, and services; and fund minor construction in
support of the Afghan army and police. In 2010, DOD began providing substantial direct
assistance to the operating budgets of the defense ministries. In FY 2010 and FY 2011,
DOD contributed a total of nearly $900 million to the MOD for its operating budget to cover
recurrent costs and more than $230 million to the MOI. 15

Earlier this year a SIGAR audit found accountability weaknesses in CSTC-A’s process for
ordering, delivering, and paying for fuel for the Afghan army. 16 CSTC-A, in coordination with
the Afghan government, is trying to develop the ANA’s capability to provide its own logistics
and maintenance requirements and had been planning to provide direct assistance to the
Afghan government to procure ANA fuel. Our report included six recommendations to CSTC-A

15   Based on a CSTC-A response to SIGAR data call, July 2012
16SIGAR Audit 13-4, Afghan National Army: Controls Over Fuel For Vehicles, Generators, and Power Plants
Need Strengthening To Prevent Fraud, Waste, and Abuse, January 24, 2013


SIGAR 13-10T                                                                                         Page 7
to address the problems we identified. CSTC-A concurred with all of these recommendations,
including one of the most important: to revise its strategy for providing direct contributions
to the Afghan government for future fuel purchases and make direct assistance contingent
upon the Afghan MOD demonstrating it can manage and account for U.S. funds.

We are currently evaluating plans to provide direct assistance to purchase fuel for the
Afghan police. Later this year, we will begin an audit of U.S. efforts to build the financial-
management capacity at the MOI.


SIGAR Concerns about Direct Assistance
As U.S. combat troops withdraw and the transition to the Afghan security forces proceeds,
both USAID and DOD have told SIGAR they intend to provide more direct funding to the
Afghan government.

SIGAR does not oppose direct assistance. But if the Administration and Congress proceed
with plans to increase direct assistance, we believe it is critical that they focus on three
issues that could dramatically threaten our reconstruction objectives:

      •   the lack of Afghan government capacity to manage and account for donor funds,
      •   the effect of pervasive corruption, and
      •   the need to ensure adequate, long-term oversight.

Lack of Afghan Capacity
Some studies indicate that direct assistance may have a more positive impact on
Afghanistan’s economy than “off budget” assistance. For example, the World Bank has
urged international donors to increase on-budget aid and manage operations and
maintenance through government systems to improve aid effectiveness. However, just this
year, the World Bank also cautioned that the Afghan government “will need to overcome
serious absorptive capacity constraints to be able to receive and effectively use additional
donor money on budget.” 17

Budget execution remains a problem. In December 2012, the lower house of the Afghan
parliament voted to impeach 11 government ministers for failing to spend at least 50
percent of their prior fiscal-year budgets.18 According to the World Bank, Afghanistan has
only been able to execute around $1 billion of its core development budget annually since
2007/2008. The Bank attributes the low budget execution rate to a combination of


17   The World Bank, Afghanistan in Transition: Looking beyond 2014, 2013, p. 20
18 Tolo News (Afghanistan), “Parliament Rejects 2013 Budget,” December 23, 2012,
http://tolonews.com/en/afghanistan/8815-parliament-rejects-2013-budget


SIGAR 13-10T                                                                                 Page 8
structural and capacity issues. 19 It concluded, “Over the next few years a concerted push by
donors and government alike is needed to improve government capacity to spend its
development budget.” 20

SIGAR’s audits of the ARTF and LOTFA have raised questions about the Afghan
government’s ability to account for funds. In its July 2011 assessment of the ARTF, SIGAR
found that although Afghan ministries had increased their capacity to manage government
finances, the Afghan government continued to face challenges in training and retaining civil
servants able to administer and account for ARTF funds. 21 SIGAR’s audit of the MOI’s
personnel systems concluded that the MOI’s payroll system provided little assurance that
only those ANP personnel who are actually working are paid and that LOTFA funds are used
to reimburse only eligible ANP costs. Furthermore, SIGAR’s auditors found that the UNDP
could not confirm that LOTFA funds were used to reimburse only eligible ANP costs. 22

Pervasive Corruption
Although the Afghan government has said it is committed to tackling endemic corruption,
Afghan officials remain reluctant to take serious action to prosecute corrupt officials,
especially if they are high-ranking or well-connected. In its latest report, the Independent
Joint Anti-Corruption Monitoring and Evaluation Committee (MEC) noted some government
ministries—such as the Ministry of Mines and the Ministry of Finance—had made progress in
implementing the Committee’s recommendations and meeting benchmarks to deter
corruption. However, the MEC said the justice sector has not made similar strides and noted
that the Attorney General’s office has not taken the steps needed to combat corruption. 23

Given the widespread corruption in Afghanistan, direct assistance has some inherent risks
that could see the funds benefitting only those with close ties to the government. Last
month, during his visit to Kabul, Secretary of State John Kerry met with a group of Afghan
businesswomen who underscored this concern. These entrepreneurs, who have carved

19   The World Bank, Afghanistan in Transition: Looking beyond 2014, 2013, p. 12
20   The World Bank, Afghanistan in Transition: Looking beyond 2014, 2013, p. 91
21SIGAR Audit 11-13, The World Bank and the Afghan Government Have Established Mechanisms to Monitor
and Account for Funds Contributed to the Afghanistan Reconstruction Trust Fund, but Some Limitations and
Challenges Should be Addressed, July 22, 2011
22SIGAR Audit 11-10, Despite Improvements in MOI’s Personnel Systems, Additional Actions Are Needed to
Completely Verify ANP Payroll Costs and Workforce Strength, April 25, 2011
23 Independent Joint Anti-Corruption Monitoring and Evaluation Committee, “3rd Six-Month Report of the
Independent Joint Anti-Corruption Monitoring and Evaluation Committee (July-December 2012),” p. 30,
3/13/2013. The Joint Anti-Corruption Monitoring and Evaluation Committee (MEC) was created by Presidential
Decree in March 2010 after the need for independent monitoring and evaluation of anti-corruption efforts was
identified at a series of international conferences. The mandate of the MEC is to develop anti-corruption
recommendations and benchmarks; to monitor and evaluate the government and international community’s
efforts to fight corruption; and to report to the President, Parliament, people and the international community.


SIGAR 13-10T                                                                                              Page 9
niches for themselves in an overwhelmingly male-dominated society, told the Secretary of
State they were worried that they and others who are not politically connected to the Afghan
government could be marginalized. Clearly we must ensure that everyone has a fair chance
to compete for any Afghan government contracts funded by direct assistance.


Ensuring Oversight is Vital to Protecting the U.S. Investment in Afghanistan
The U.S. government plans to significantly increase its direct assistance to Afghanistan as
the security transition progresses. It is imperative that the Afghan government has the
capacity to execute and account for this money. The United States and other international
donors must establish mechanisms to protect direct assistance from corruption and ensure
that there is vigorous oversight of these funds. Implementing agencies are the first line of
defense against waste, fraud, and abuse. They must have clear bilateral agreements with
strong provisions for oversight. Accordingly, direct assistance should be conditioned on the
Afghan ministries not only meeting measureable outcomes, but also providing unfettered
and timely access to their books and records as well as to sites, offices, and staff of projects
funded by U.S. assistance.

Let me close by observing that none of us knows exactly what kind of impact the transition
to increased direct assistance is going to have on the political, economic, and social
development of Afghanistan. On the one hand, a greater proportion of the funds will be
going toward Afghans, rather than foreign contractors or NGOs, and this may result in
increased government capacity and more sustainable development. On the other hand,
capacity challenges in the Afghan ministries coupled with the difficulties of providing
assistance in a conflict zone riddled with corruption will also put direct assistance funds at
risk of being wasted. Whatever type of aid the United States provides, U.S. government
officials must address the systemic problems inherent in every aspect of the reconstruction
effort—inadequate planning, poor quality assurance, poor security, questionable
sustainability, and pervasive corruption.

SIGAR intends to make certain that Congress is informed of safeguards needed to ensure
that U.S. funds provided to the Afghan government are spent as appropriately and effectively
as the risk environment allows. That is why SIGAR has several ongoing audits and special
projects examining key aspects of direct assistance. Our reports, including the Quarterly
Report to Congress, will document that work. We look forward to sharing our findings and
recommendations on these timely concerns over the coming months.

Thank you for the opportunity to testify today. I look forward to answering your questions.




SIGAR 13-10T                                                                             Page 10
